          Audit Report



 Controls over the Issuance of
Supplemental Security Income
    Installment Payments




    A-09-11-21194 | March 2013
MEMORANDUM


Date:      March 21, 2013                                                     Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Controls over the Issuance of Supplemental Security Income Installment Payments
           (A-09-11-21194)

           The attached final report presents the results of our audit. Our objective was to determine
           whether the Social Security Administration had adequate controls to ensure it paid Supplemental
           Security Income underpayments in accordance with its installment payment requirements.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Controls over the Issuance of Supplemental Security Income
Installment Payments
A-09-11-21194
March 2013                                                                Office of Audit Report Summary

Objective                                 Our Findings

To determine whether the Social           Generally, SSA had effective controls to ensure it properly paid
Security Administration (SSA) had         underpayments in accordance with its installment payment
adequate controls to ensure it paid       requirements to SSI recipients in current pay status. However, SSA
Supplemental Security Income (SSI)        needs to improve controls to ensure it pays underpayments to
underpayments in accordance with its      recipients whose payments had been suspended or terminated. We
installment payment requirements.         estimate that SSA had not paid about $55.3 million in
                                          underpayments to 13,334 recipients.
Background
                                          These underpayments were not paid because SSA employees did
The SSI program provides a minimum        not establish controls to ensure it paid the underpayments after the
level of income to financially needy      recipients’ SSI payments were suspended or terminated.
individuals who are aged, blind, or       Specifically, SSA employees had not established diaries to control
disabled. An underpayment occurs          the issuance of the underpayments to these recipients. Without
when the amount due a recipient is        these diaries, the underpayments may never be paid.
greater than the amount paid during a
period of eligibility. SSI                Our Recommendations
underpayments must be paid by
installments when they equal or exceed    We recommend that SSA:
3 times the current maximum
                                          1. Take corrective action, as appropriate, for the 115 recipients
individual Federal benefit amount plus
                                             identified by our audit.
the individual’s federally administered
State supplement. When a recipient is     2. Evaluate the results of its corrective action for the
in a suspended or terminated status,         115 recipients and determine whether it should review the
SSA employees must manually control          population we identified of underpaid recipients in a suspended
the underpayments to ensure they are         or terminated status.
paid accurately and timely.
                                          3. Remind employees to prepare diaries to control the issuance of
                                             underpayments to recipients in a suspended or terminated status.

                                          SSA agreed with all our recommendations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Controls over the Issuance of Installment Payments .................................................................3
Conclusions ......................................................................................................................................5
Recommendations ............................................................................................................................5
Agency Comments ...........................................................................................................................5
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Sampling Methodology and Results ................................................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Controls over the Issuance of Supplemental Security Income Installment Payments (A-09-11-21194)
ABBREVIATIONS
C.F.R.               Code of Federal Regulations

FBR                  Federal Benefit Rate

OIG                  Office of the Inspector General

POMS                 Program Operations Manual System

SSA                  Social Security Administration

SSI                  Supplemental Security Income

SSR                  Supplemental Security Record

U.S.C.               United States Code




Controls over the Issuance of Supplemental Security Income Installment Payments (A-09-11-21194)
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA) had adequate
controls to ensure it paid Supplemental Security Income (SSI) underpayments in accordance with
its installment payment requirements.

BACKGROUND
SSA administers the SSI program under Title XVI of the Social Security Act. 1 The SSI program
provides a minimum level of income to financially needy individuals who are aged, blind, or
disabled. 2 The SSI program requires that individuals’ needs be matched with their financial
circumstances each month to determine eligibility and payment amounts. Changes in individual
financial circumstances require that SSA reassess and verify recipients’ eligibility and payment
amounts.

SSI underpayments occur because of changes in recipients’ non-medical eligibility factors, such
as earned/unearned income or living arrangements. As these changes occur, recipients’
eligibility and payment amounts can change from month to month. An underpayment occurs
when the amount due a recipient is greater than the amount paid during a period of eligibility. In
general, SSA must pay an underpayment to a recipient the month after SSA determines it exists. 3
However, SSA must reduce underpayments to recover existing overpayments. 4 If there is no
overpayment and the recipient is alive, the underpayment should be paid to the recipient. If the
recipient is deceased, the underpayment should be paid to a spouse or parent if the deceased
recipient was living with the spouse or parent at the time of death or within the 6 months
immediately preceding the month of death. 5




1
    Social Security Act § 1601 et seq, 42 U.S.C. 1381 et seq; see also 20 C.F.R. § 416.101 et seq.
2
    Social Security Act § 1602, 42 U.S.C. 1381a; see also 20 C.F.R. § 416.110.
3
    20 C.F.R. § 416.538; see also SSA, POMS, SI 02101.002 (December 15, 2004).
4
    20 C.F.R. § 416.543.
5
    20 C.F.R. § 416.542.




Controls over the Issuance of Supplemental Security Income Installment Payments (A-09-11-21194)      1
SSI underpayments must be paid by installments when they equal or exceed 3 times the current
maximum individual Federal benefit amount (FBR) plus the individual’s federally administered
State supplement. 6 Installment payments must be paid in no more than three payments made at
6-month intervals. The first and second installment payments cannot exceed three times the FBR
plus any State supplement. The third and final installment includes any remaining
underpayment. 7

SSA is required to suspend SSI payments for any month in which an individual does not meet
the eligibility requirements. For example, if a recipient does not provide information needed to
determine continuing SSI eligibility, SSA will suspend payments. In addition, after
12 consecutive months of suspension, SSI payments are generally terminated. 8 After SSA has
terminated payments, the individual must file a new application to reestablish eligibility for SSI.
When this occurs, SSA will establish a new SSI record for the application or period of eligibility.
SSI underpayments are usually payable when a recipient’s SSI payments are suspended or
terminated. 9 However, when this occurs, SSA employees must establish controls to ensure the
underpayments are paid. 10 The employee must manually prepare a diary because SSA’s systems
do not do so automatically.

For our review, we identified 122,533 recipients in current pay status as of March 2011 with
underpayments totaling $810.7 million on the Supplemental Security Record (SSR). In addition,
we identified 23,189 recipients on the SSR whose payments were suspended or terminated
between January 2007 and March 2011 with underpayments totaling $125 million.

RESULTS OF REVIEW
Generally, SSA had effective controls to ensure it properly paid underpayments in accordance
with its installment payment requirements to SSI recipients in current pay status. Our review
of a random sample of 50 recipients in current pay status found that SSA properly paid
49 (98 percent) recipients and improperly withheld an underpayment to 1 recipient.

We also found that SSA needs to improve controls to ensure it pays underpayments to recipients
whose payments had been suspended or terminated. Based on our random sample of


6
 20 C.F.R. § 416.545. In 2011, the maximum FBR for an individual was $674. In 2011, underpayments of
$2,022 or more were subject to installments for individuals who resided in States without a federally administered
State supplement.
7
    SSA, POMS, SI 02101.020 (March 1, 2012).
8
    20 C.F.R. § 416.1335.
9
 Underpayments are not payable if recipients are incarcerated (20 C.F.R. § 416.1339) or if their whereabouts are
unknown (SSA, POMS, SI 02301.240; July 16, 2008).
10
     SSA, POMS, SI 02101.020 (March 1, 2012).




Controls over the Issuance of Supplemental Security Income Installment Payments (A-09-11-21194)                      2
200 recipients in suspended or terminated status, we estimated that SSA had not paid
approximately $55.3 million in underpayments to 13,334 recipients. We are 90-percent
confident the number of recipients ranged from 11,936 to 14,693, and the underpayments ranged
from $47.8 to $62.9 million (see Appendix A).

SSA did not pay the underpayments because its employees did not establish controls to ensure
they paid the underpayments after the recipients’ SSI payments were suspended or terminated.
Of the 200 recipients in our sample, SSA did not pay 115 (57.5 percent). SSA correctly paid
55 recipients (27.5 percent) their underpayments and properly withheld underpayments for
30 recipients (15 percent) because they were incarcerated; their whereabouts were unknown; or
they were ineligible for the payment. The following chart summarizes the results of our review.

             Figure 1: Suspended or Terminated SSI Recipients with Underpayments


                         Based on a Random Sample of 200 Recipients


                                     55 Correctly Paid
                                         (27.5%)



       30 Correctly
     Withheld (15.0%)




                                                                         115 Not Paid
                                                                           (57.5%)




Controls over the Issuance of Installment Payments
SSA has automated controls to ensure it pays underpayments to SSI recipients in current pay
status. These controls include paying the recipient the proper amounts in 6-month intervals,
recording the payment information on the recipient’s SSR, and sending the recipient a notice to
explain the installment provisions and amounts to be paid. 11 However, when a recipient is in a
suspended or terminated status, SSA employees must manually control the underpayments to
ensure they are paid accurately and timely and it sends notices to the recipients. This requires
that SSA employees establish diaries to control the issuance of the installment payments. After



11
     SSA, POMS, SI 02101.020 (March 1, 2012).




Controls over the Issuance of Supplemental Security Income Installment Payments (A-09-11-21194)    3
the diaries mature, SSA employees must take appropriate actions to issue an installment payment
and establish a new diary if additional installment payments are payable.

Our review disclosed that SSA did not pay 115 (57.5 percent) of the 200 recipients in our
sample. As a result, SSA improperly withheld $477,315 in underpayments to these recipients.
The average time SSA did not pay these underpayments was 38.1 months (about 3.2 years). 12
As depicted in the chart below, SSA did not pay 14 recipients underpayments that had been
payable for 5 years or longer.

                                   Figure 2: Underpayments Not Paid


                               Based on a Random Sample of 200 Recipients


              40
              35
              30
              25
              20
              15
              10
               5
               0
                     Under 1       1 to 2       2 to 3         3 to 4   4 to 5     Over 5
                      Year         Years        Years          Years    Years      Years




We found that the recipients were not paid because SSA employees did not control the issuance
of underpayments after the recipient’s SSI payments were suspended or terminated. At the time
of our review, SSA employees had not established diaries to control for the issuance of the
underpayments for any of the 115 recipients. Without these diaries, the underpayments may
never be paid.

For example, in October 2009, SSA determined a recipient was underpaid $7,572 because of a
change in his living arrangements. SSA paid the recipient the first $2,022 installment in
November 2009. However, the SSA employee did not establish a diary to control the issuance of
the remaining $5,550 to the recipient. As of October 2012, the $5,550 underpayment had not
been paid.


12
     The mean was 38.1 months, and the median was 34 months.




Controls over the Issuance of Supplemental Security Income Installment Payments (A-09-11-21194)   4
CONCLUSIONS
Generally, SSA had effective controls to ensure it properly paid underpayments to SSI recipients
in current pay status. However, SSA needs to improve controls to ensure it pays SSI
underpayments to recipients whose payments had been suspended or terminated. Based on a
random sample of 200 recipients in suspended or terminated status, we estimated that SSA had
not paid about $55.3 million in underpayments to 13,334 recipients (see Appendix B). These
underpayments were not paid because SSA employees did not establish controls to ensure the
Agency paid the underpayments after the recipients’ SSI payments were suspended or
terminated.

RECOMMENDATIONS
We recommend that SSA:

1. Take corrective action, as appropriate, for the 115 recipients identified by our audit.

2. Evaluate the results of its corrective action for the 115 recipients and determine whether it
   should review the population we identified of underpaid recipients in a suspended or
   terminated status.

3. Remind employees to prepare diaries to control the issuance of underpayments to recipients
   in a suspended or terminated status.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in Appendix C




Controls over the Issuance of Supplemental Security Income Installment Payments (A-09-11-21194)    5
                                       APPENDICES




Controls over the Issuance of Supplemental Security Income Installment Payments (A-09-11-21194)
Appendix A – SCOPE AND METHODOLOGY
From the Social Security Administration’s (SSA) Supplemental Security Record (SSR), we
obtained two data extracts in March 2011. From these data extracts, we identified two
populations for review. The first population consisted of 122,533 recipients in current pay status
that had an underpayment greater than $1,800. From this population, we selected a random
sample of 50 recipients for review. The second population consisted of 23,189 SSI recipients
whose payments were suspended or terminated between January 2007 and March 2011 and who
had an underpayment greater than $1,800. From this population, we randomly selected a sample
of 200 recipients for review.

To accomplish our objective, we

•   reviewed the applicable sections of the Social Security Act, Federal regulations, and SSA’s
    Program Operations Manual System (POMS);

•   interviewed SSA employees from the Western Program Service Center;

•   reviewed queries from SSA’s SSR for each sample item to determine whether SSA had
    issued underpayments to SSI recipients in accordance with SSA’s policies and procedures;
    and

•   reviewed SSA’s Modernized Supplemental Security Income Claims System, Modernized
    Development Worksheet, and Online Retrieval System to obtain information regarding the
    underpayments.

We determined the computer-processed data from the SSR were sufficiently reliable for our
intended use. We conducted tests to determine the completeness and accuracy of the data.
These tests allowed us to assess the reliability of the data and achieve our audit objectives.

We performed our audit in Richmond, California, between March and October 2012. The
entities reviewed were the Offices of the Deputy Commissioners for Operations and Systems.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.




Controls over the Issuance of Supplemental Security Income Installment Payments (A-09-11-21194)   A-1
Appendix B – SAMPLING METHODOLOGY AND RESULTS
We obtained two data extracts from the Supplemental Security Record (SSR) and identified two
populations for review. The first population consisted of 122,533 Supplemental Security Income
(SSI) recipients in current pay status who had an underpayment greater than $1,800. From this
population, we randomly selected a sample of 50 recipients and reviewed the SSR to determine
whether the underpayments had been paid. Of the 50 recipients in our sample, we found that the
Social Security Administration (SSA) had properly paid 49 (98 percent) recipients and
improperly withheld an underpayment to 1 recipient.

Our second population consisted of 23,189 SSI recipients in a suspended or terminated payment
status who had an underpayment greater than $1,800. From this population, we randomly
selected a sample of 200 recipients and reviewed the SSRs to determine whether the
underpayments had been paid. Of the 200 recipients in our sample, we found that SSA had not
paid 115 recipients (57.5 percent) underpayments totaling $477,315. Projecting these results to
our population of 23,189 recipients, we estimate that SSA had not paid 13,334 recipients
underpayments totaling approximately $55.3 million. The following tables provide the details of
our sample results and statistical projections.

                                Table B-1: Population and Sample Size
 Description                                                              Number of Recipients
 Population Size                                                          23,189
 Sample Size                                                              200

                                  Table B-2: Underpayments Not Paid
                                                                  Number of           Underpayment
 Description                                                      Recipients            Amount
 Sample Results                                                              115             $477,315
 Point Estimate                                                           13,334          $55,342,288
 Projection - Lower Limit                                                 11,936          $47,823,684
 Projection - Upper Limit                                                 14,693          $62,860,892
Note:   All projections are at the 90-percent confidence level.




Controls over the Issuance of Supplemental Security Income Installment Payments (A-09-11-21194)    B-1
           Appendix C – AGENCY COMMENTS




                                            SOCIAL SECURITY

MEMORANDUM


Date:      March 04, 2013                                                                Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Controls over the Issuance of Supplemental
           Security Income Installment Payments” (A-09-11-21194)--INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Controls over the Issuance of Supplemental Security Income Installment Payments (A-09-11-21194)   C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“CONTROLS OVER THE ISSUANCE OF SUPPLEMENTAL SECURITY INCOME
INSTALLMENT PAYMENTS” (A-09-11-21194)


Recommendation 1

Take corrective action, as appropriate, for the 115 recipients identified by our audit.

Response

We agree.

Recommendation 2

Evaluate the results of its corrective action for the 115 recipients and determine whether it should
review the population we identified of underpaid recipients in a suspended or terminated status.

Response

We agree.

Recommendation 3

Remind employees to prepare diaries to control the issuance of underpayments to recipients in a
suspended or terminated status.

Response

We agree.




Controls over the Issuance of Supplemental Security Income Installment Payments (A-09-11-21194)   C-2
Appendix D – MAJOR CONTRIBUTORS
James J. Klein, Director, San Francisco Audit Division

Joseph Robleto, Audit Manager

James Sippel, Senior Auditor

Wilfred Wong, Audit Data Specialist




Controls over the Issuance of Supplemental Security Income Installment Payments (A-09-11-21194)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
